App.la

APPENDIX TABLE OF CONTENTS
Order of the Second Circuit
(July 27, 2018)...........................

la

Mandate of the Second Circuit
(November 30, 2018).................

3a

Order of the District Court of New York
(April 12, 2018)....................................

5a

Order of the District Court of New York
(August 10, 2018)...............................

7a

Order of the District Court of New York
(November 6, 2017)........................... .

9a

Letter Motion: Request for Extension of Time and
Order of the District Court of New York
Denying Motion (November 3, 2017)................ 11a
Order of the District Court of New York
(October 24, 2017)..............................

14a

Order of the District Court of New York
(October 13, 2017)..............................

16a

Order of the Second Circuit Denying Petition for
Rehearing En Banc (January 11, 2019).......... 18a
Cross-Motion for Order Denying Plaintiffs SelfStyled Remand Motion and Sanctioning
Plaintiff and/or Nora Bushfield, Esq. Under
Rule 11 of the Fed. R. Civ. P. and Granting
Other Appropriate Relief
(November 13, 2017)........................................... 19a

App.2a

Defendant Noel L Smith, Pro Se’s Affirmation in
Support of Defense Cross-Motion for Order
Denying Plaintiffs Self-Styled Remand Motion
and Sanctioning Plaintiff and/or Nora Bushfield, Esq. Under Rule 11 of the F. R. Civ. P.
Appropriate Relief
(November 13, 2017)........................................... 23a

App.la

ORDER OF THE SECOND CIRCUIT
(JULY 27, 2018)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
DIANE SMITH CARUSOS, as Heir-at-Law to
the Estate of Dorothy Lang Smith, Deceased,
Plaintiff-Appellee,
v.
NOEL L. SMITH, M.D.,
Defendant-Appellant.
No. 18-1204
Before: Robert A. KATZMANN, Chief Judge.,
Jose A. CABRANES, Rosemary S. POOLER,
Circuit Judges.
Appellee moves to dismiss the appeal for lack of
jurisdiction. Appellant moves for the district court’s
order to be vacated, essentially seeking summary
reversal, as well as other relief. Upon due consideration,
it is hereby ORDERED that Appellee’s motion is
GRANTED, in part, and the appeal is DISMISSED as
to the district court’s order remanding to state court.
28 U.S.C. § 1447(d); Shapiro v. Logistec USA, Inc.,
412 F.3d 307, 310 (2d Cir. 2005). Appellant’s motion
is DENIED as moot insofar as it relates to the remand
order.

App.2a

The remained of this appeal is hereby STAYED
pending resolution of Appellant’s timely motion for
reconsideration of the district court’s decision not to
impose sanctions pursuant to Fed. R. Civ. P. 11, See
2d Cir. No. 14-3649-cv, Dkt. No. 40 (staying an appeal
when a motion for reconsideration on the same issue
remains undecided in the district court.). Appellant’s
notice of appeal will become “effective” as to the Rule
11 determination when that motion is decided. See
Fed. R. App. P, 4(a)(4)(A)(vi), 4(a)(4)(B)(i).
Appellant is directed to inform this Court in
writing within 14 days after final judgment is entered
in the district court, Appellant is also directed to pro­
vide the Court with a copy of all dispositive orders. The
motion will be decided by a new panel in the ordinary
course.
FOR THE COURT:
Is/ Catherine O’Hagan Wolf
Clerk

App.3a

MANDATE OF THE SECOND CIRCUIT
(NOVEMBER 30, 2018)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
DIANE SMITH CARUSOS, as Heir-at-Law to
the Estate of Dorothy Lang Smith, Deceased,
Plain tiff-Appellee,
v.
NOEL L. SMITH, M.D.,
Defendant-Appellant. 1
18-1204
Before: Amalya L. KEARSE,
Debra Ann LIVINGSTON,
Susan L. CAMEY, Circuit Judges.
In July 2018, this Court dismissed Appellant’s
appeal in part, ruling it lacked jurisdiction to review
the district court’s order remanding to state court,
but the Court stayed the portion of the appeal challen­
ging the district court’s denial of Appellant’s motion
for Fed. R. Civ. P. 11 sanctions, pending resolution
of a timely Fed. R. Civ. P. 60 motion. 2d Cir. 18-1204,

1 The Clerk of Court is directed to amend the official caption to
conform with the caption above.

App.4a

doc. 34. The district court has since denied Appellant’s
Rule 60 motion.
Appellant, pro se, moves to reinstate his appeal
from the district court’s order remanding to state court,
and for reconsideration en banc. Appellee moves to
dismiss the appeal for lack of jurisdiction, arguing only
that a remand order is not appealable.
Upon due consideration, it is hereby ORDERED
that Appellant’s motion to reinstate is DENIED. See
28 U.S.C. § 1447(d); Shapiro v. Logistec USA Inc.,
412 F.3d 307, 310 (2d Cir. 2005).
It is further ORDERED that the remainder of this
appeal from the district court’s order denying Rule 11
sanctions and the Rule 60 motion is DISMISSED
because it lacks an arguable basis in law or fact.
See Klobel v. Millson, 592 F.3d 78, 81 (2d Cir. 2010);
see Pillay v. INS, 45 F.3d 14, 16-17 (2d Cir. 1995)
(per curiam) (holding that this Court has “inherent
authority” to dismiss an appeal that lacks an arguable
basis in law or fact). Appellee’s motion to dismiss is
DENIED as moot because Appellant’s appeal from the
remand order was previously dismissed by this Court
for lack of jurisdiction.
Appellant’s motion for reconsideration en banc
will be distributed to the active judges in due course.
FOR THE COURT:
/s/ Catherine O’Hagan Wolf
Clerk

App.5a

ORDER OF THE
DISTRICT COURT OF NEW YORK
(APRIL 12, 2018)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DIANE SMITH CARUSOS, as Heir-at-Law to
the Estate of Dorothy Lang Smith, Deceased,
Plaintiff,
v.
NOEL L. SMITH, M.D.,
Defendant.
17 Civ. 07644 (AT)
Before: Analisa TORRES,
Unites States District Judge.
ANALISA TORIES, United States District Judge:
On October 5, 2017, Defendant pro se Noel L.
Smith removed this case from the Superior Court in
Lumpkin County, Georgia. ECF NO. 1. On October 13,
2017, the Court sua sponte remanded the case back
to the state courts as procedurally improper, ECF
No. 4; 28 U.S.C. § 1446(a). Defendant pro se filed a
motion for reconsideration, ECF No. 5, which the Court
granted in order to give each of the parties an oppor­
tunity to be heard, and, accordingly, notified Plaintiff

App.6a

of the deadline for a motion to remand, ECF No. 6,
which she filled, ECF No. 11.
Having heard from both parties, ECF Nos. 11, 13,
14, 15, 16, Plaintiffs motion to remands is hereby
GRANTED. Defendant pro se’s request for sanctions
against Plaintiff and for other relief DENIED. Under
28 U.S.C. § 1446(a), removal from state to federal
court is only proper “in the district court of the United
States for the district and division within which [the
state] action is pending.” Here, the state action may
only be removed to the United States District Court for
the Northern District of Georgia (Gainesville Division),
See 28 U.S.C. § 90(a)(1).
The Clerk of Court is directed to terminate the
motions at ECF Nos. 11, 14, 16, mail a copy of this order
to Defendant pro se, remand this case to the Lumpkin
County Superior Court, and mail a certified copy of
this order to the clerk of the Lumpkin County Superior
Court.
SO ORDERED.
/s/ Analisa Torres
United States District Judge
Dated: April 12, 2018
New York, New York

App.7a

ORDER OF THE
DISTRICT COURT OF NEW YORK
(AUGUST 10, 2018)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DIANE SMITH CARUSOS, as Heir-at-Law to
the Estate of Dorothy Lang Smith, Deceased,
Plaintiff,
v.
NOEL L. SMITH, M.D.,
Defendant.
17 Civ. 7644(AT)
Before: Analisa TORRES,
Unites States District Judge.
ANALISA TORIES, United States District Judge:
On May 4, 2018, Defendant moved for reconsid­
eration of the Court’s order of April 12, 2018. ECF
No. 19. The motion is DENIED as untimely. See Local
Rule 6.3 (requiring motions for reconsideration to be
served within fourteen days of the Court’s original
determination). Even if it were timely, Defendant’s
arguments are meritless and fail to meet the high bar
required to prevail on a motion for reconsideration.
Mallet v. Miller, 438 F. Supp. 2d 276, 277 (S.D.N.Y.
2006).

App.8a

The Clerk of Court is directed to terminate the
motion at ECF No. 19, mail a copy of this order to
Defendant pro se, and close the case.
SO ORDERED.
/s/ Analisa Torres
United States District Judge
Dated: August 10, 2018
New York, New York

App.9a

ORDER OF THE
DISTRICT COURT OF NEW YORK
(NOVEMBER 6, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DIANE SMITH CARUSOS, as Heir-at-Law to
the Estate of Dorothy Lang Smith, Deceased,
Plaintiff,
v.
NOEL L. SMITH, M.D.,
Defendant.
17 Civ. 7644(AT)
Before: Analisa TORRES,
Unites States District Judge.
ANALISA TORIES, United States District Judge:
Haying received Plaintiffs motion to remand
pursuant to 28 U.S.C. § 1447(c), ECU No. 11, it is
hereby ORDERED that:
1.

By November 22, 2017, Defendant shall file
his opposition to the motion to remand, if at
all.

2.

By December 1, 2017, Plaintiff shall file her
reply, if at all.

App.lOa

The Clerk of Court is directed to mail a certified
copy of this order to Defendant pro se and the clerk of
the Lumpkin County Superior Court.
SO ORDERED.
Is/ Analisa Torres
United States District Judge
Dated: November 6, 2017
New York, New York

App.lla

LETTER MOTION:
REQUEST FOR EXTENSION OF TIME
AND ORDER OF THE DISTRICT COURT
OF NEW YORK DENYING MOTION
(NOVEMBER 3, 2017)
Nora Kalb Bushfield
Law office
3128 Clairmont RD NE
Atlanta, Georgia 30329
Tel: (404) 248-1444
Fax: (404) 248-1464
Cell: (404) 441-5339
Nora@Atlantala w .net
Letter Motion
Honorable Analisa Torres
United States District Judge
Southern District of New York
500 Pearl Street New York
New York 10007
Re: DIANE SMITH CARUSO & as HeNat-Law to
the, Estate ofDorothy Lang Smith, Deceased”).
NOEL L. SMITH, M.D. U.S. District Court for
the Southern District of New York Civil Action
File No.: 17 Civ. 7644 (AT) Requests for Exten­
sion of Time
Dear Judge Torres:
This Letter Motion is a Request for Extension of
Time made in wilting and filed electronically on ECF,
with a courtesy copy delivered to the Court by e-mail
in compliance with. The S.D.N.Y. Local Rules and Elec-

App.l2a

tronic Case Filing Rules and. Instructions, in accordance
with Rule 1(B) and (C) of your individual Practices in
Civil Cases.
I am in receipt of your ORDER, Date Filed:
10/24/2017, granting Defendant’s Motion for Reconsid­
eration, ECF No. 5, of the Court’s order of October 13,
2017, ECF No. 4. Under 28 U.S.C. § 1447(c), Plaintiff
has until November 6, 2017 to file a motion to remand
on the grounds that removal is procedurally improper.
I have filed a Motion for Admissions Pro Hac Vace
and anticipate my Motion for Admission being granted.
However, the drafting and satisfying all requirements
for inclusion is said Motion for Admission Pro Hac
Vace has proven to be extremely time consuming. For
example, I had to appear in person before the Clerk
of the Supreme Court of Georgia to obtain my
Certificate of Good Standing because their only means
of transmission is by U.S. Postal Service. This required
me to travel to downtown Atlanta in our infamous
traffic to personally pick up my Certificate. In addition,
the ECF reports the case as closed which is confusing.
I do not know when I might expect to receive
notification of the status of my Motion for Admission
Pro Hac Vace. Therefore, lain concerned that I will
not be able to respond to the Court’s request that I file
a Motion to Remand by November 6, 2017.
This is the first and only request I have made for
an extension of time in this case. I do not expect the
Defendant to consent to this Motion due to the
adversary history in this case.
Therefore, I request that the Court grant this
Letter Motion by extending the time that I have to
file a Motion to Remand in this case.

App.l3a

If you need additional information or have any
questions, please contact me at your convenience.
Sincerely,
/s/ Nora Kalb Bushfield
Nora Kalb Bushfield, JD, MSW
DENIED. A motion for remand “must be made
within 30 days after the filing of the notice of removal.”
28 U.S.C. § 1447(e). After 30 days, objections to removal
“on the basis of any defect other than lack of subject
matter jurisdiction,” id., are waived, Hamilton v.
Aetna Life & Cas. & Co., 5 F.3d 642, 644 (2d Cir. 1993).
Accordingly, the Court cannot extend the statutorily
mandated time limit.
Plaintiff has until November 6, 2017 to move to
remand. See ECF No. 6.
SO ORDERED.
Is/ Analisa Torres
United States District Judge
Dated: November 3, 2017
New York, New York

App.l4a

ORDER OF THE
DISTRICT COURT OF NEW YORK
(OCTOBER 24, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DIANE SMITH CARUSOS, as Heir-at-Law to
the Estate of Dorothy Lang Smith, Deceased,
Plaintiff,
v.
NOEL L. SMITH, M.D.,
Defendant.
17 Civ. 7644(AT)
Before: Analisa TORRES,
Unites States District Judge.
ANALISA TORIES, United States District Judge:
Defendant’s motion for reconsideration, ECF No.
5, of the Court’s order of October 13, 2017, ECF No.
4, is GRANTED.
Under 28 U.S.C. § 1447(e), Plaintiff has until
November 6, 2017 to file a motion to remand on the
grounds that removal is procedurally improper. See
Orden v. Cornell Univ., 243 F. Supp. 3d 287, 292
(N.D.N.Y. 2017) (“There is no provision of federal law
which would permit a defendant to remove an action

App.l5a

to a federal court sitting in a district and division
other than that where the, state court action is pend­
ing.”) (quoting Hoover v. Gershman Inv. Corp., 774 F.
Supp. 60, 63 (D. Mass. 1991)).
Defendant shall send a copy of this order to
Plaintiff by October 30, 2017. The Clerk of Court is
directed to mail a certified copy of this order to
Defendant pro se and the clerk of the Lumpkin County
Superior Court.
SO ORDERED.
Is/ Analisa Torres
United States District Judge
Dated: October 24, 2017
New York, New York

App.l6a

ORDER OF THE
DISTRICT COURT OF NEW YORK
(OCTOBER 13, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DIANE SMITH CARUSOS, as Heir-at-Law to
the Estate of Dorothy Lang Smith, Deceased,
Plaintiff,
v.
NOEL L. SMITH, M.D.,
Defendant
17 Civ. 7644(AT)
Before: Analisa TORRES,
Unites States District Judge.
ANALISA TORIES, United States District Judge:
Under 28 U.S.C. § 1446(a), removal from state to
federal Court is only proper “in the district court of
the United States for the district and division within
which [the state action is pending.” Here, the state
action is pending in the Superior Court in Lumpkin
County, Georgia, Defendant’s removal to the United
States District Court for the Southern District of
New York & therefore runs afoul of § 1446(a) The state
action Way only be removed to the United States

App.l7a

District Court for the Northern District of Georgia.
(Gainesville Division). See2& U.S.C. § 90(a)(1).
Accordingly, it is ORDERED that this case be
remanded to the Lumpkin County Superior Court. The
Clerk of Court is directed to mail a certified copy of
this order to the clerk of the Lumpkin County Superior
Court.
SO ORDERED.
Is/ Analisa Torres
United States District Judge
Dated: October 13, 2017
New York, New York

App.l8a
ORDER OF THE SECOND CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(JANUARY 11, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
DIANE SMITH CARUSOS,
AS HEIR AT LAW TO THE ESTATE OF
DOROTHY LANG SMITH, DECEASED,
Plain tiff-Appellee,
v.
NOEL L. SMITH, M.D.
Defen dan t-Appellan t.
Docket No: 18-1204
Appellant Noel L. Smith, M.D., filed a motion for
panel reconsideration, or, in the alternative, for
reconsideration en banc. The panel that determined
the appeal has considered the request for reconsider­
ation, and the active members of the Court have
considered the request for reconsideration en banc.
IT IS HEREBY ORDERED that the motion is
denied.
FOR THE COURT:
Is/ Catherine O’Hagan Wolf
Clerk

App.l9a

CROSS-MOTION FOR ORDER DENYING
PLAINTIFFS SELF-STYLED REMAND MOTION
AND SANCTIONING PLAINTIFF
AND/OR NORA BUSHFIELD, ESQ.
UNDER RULE 11 OF THE FED. R. CIV. P.
AND GRANTING OTHER APPROPRIATE RELIEF
(NOVEMBER 13, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DIANE SMITH CARUSOS, as Heir-at-Law to
the Estate of Dorothy Lang Smith, Deceased,
Plaintiff,
v.
NOEL L. SMITH, M.D.,
Defendant.
Docket No. 17 Civ. 7644(AT)
No Oral Argument Requested Motion
on Submission Only
Before: Hon. Analisa TORRES,
Unites States District Judge.
PLEASE TAKE NOTICE that pursuant to Rule 11
of the Fed. R. Civ. P. and upon filing the Affirmation
dated November 13, 2017 of Noel L. Smith, Defendant
pro se herein, and its supporting documents, annexed

App.20a

hereto, a cross-motion shall be made in this United
States District Court for the Southern District of New
York, 500 Pearl Street, New York, NY 10007, Court­
room No.
., on Friday December 15. 2017, at 9:30
AM: or any place or date and time thereafter as di­
rected by the Court, for an ORDER,
DENYING WITH PREJUDICE Plaintiffs defective
self-styled “MOTION TO REMAND ON GROUNDS
THAT REMOVAL IS PROCEDURALLY IMPROPER;”
and
SANCTIONING Plaintiff and/or her representative
Nora Bushfield, ESQ., under Rule 11 of the Fed. R.
Civ. P., and
ENJOINING Nora Bushfield from representing
further Plaintiff Diane Smith Carusos in this Court
until such time as she Would have been granted prior
court leave to formally do so; and
GRANTING Defendant relief sought in defense
MOTION TO REMOVE and/or defense MOTION FOR
RECONSIDERATION, being on file with the Court; and
REASSIGNING this Case to another Judge of the
Court in the event Honorable Analisa Torres would
have decided to continue to improperly act as de factor
co-counsel for Plaintiff Diane Smith Carusos herein;
and
RETAINING Subject-Matter Jurisdiction of this
Court over this Case, and
GRANTING Defendant a Final Judgment dismiss­
ing with prejudice Plaintiff Diane Smith Carusos’
Complaint on the merit, and terminating her Civil
Action against Defendant, Case No. 17-cv-342-MM,

App.21a

in the Superior Court of Lumpkin County, State of
Georgia; and
AUTHORIZING Defendant to file with res judicata
and/or collateral estoppel effects the Dismissal Order
with Prejudice of Plaintiffs instant proceeding with
all Concerned state and federal courts in which Plaintiff
might already have, or would have filed Any complaint
or cause of action against Defendant herein to date;
and
GRANTING Defendant the option of seeking a
Judgment granting part or all the amount of damages
set forth in defense Counterclaims, on file with the
Court, in the event Plaintiff chooses not to default in
this action but appear and/or answer Counterclaims,
and/or raise any issue in this Court or any other
court to protract further this proceeding pursuant to
Rule 11 of the Fed. R. Civ. P.; and
GRANTING Defendant all other and further
appropriate relief in the circumstances.
PLEASE TAKE FURTHER NOTICE, that oppo­
sition papers, if any, must be served upon Defendant
and filed with the Court 14 days before the return
date, and that this motion’ will be made by submission,
all oral argument waived, Defendant being not prac­
ticing attorney at law but acting pro se in this pro­
ceeding, and, except otherwise directed by the Court
in writing, no appearance by any party will be required
on the hearing date.

App.22a

Respectfully Yours,
Is/ Noel L. Smith
Noel L. Smith, M.D., Defendant
Pro Se
325 Broadway, Suite 204
New York, NY 10007
(917) 565-5210
Dated: November 13, 2017

App.23a

DEFENDANT NOEL L SMITH,
PRO SE’S AFFIRMATION IN SUPPORT OF
DEFENSE CROSS-MOTION FOR ORDER
DENYING PLAINTIFFS SELF-STYLED
REMAND MOTION AND SANCTIONING
PLAINTIFF AND/OR NORA BUSHFIELD, ESQ.
UNDER RULE 11 OF THE FED. R. CIV. P.
APPROPRIATE RELIEF
(NOVEMBER 13, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DIANE SMITH CARUSOS, as Heir-at-Law to
the Estate of Dorothy Lang Smith, Deceased,
Plaintiff,
v.
NOEL L. SMITH, M.D.,
Defendant.
Docket No. 17 Civ. 7644(AT)
No Oral Argument Requested Motion
on Submission Only
Before: Hon. Analisa TORRES,
Unites States District Judge.

App.24a

Noel L. Smith, Defendant pro so herein, affirms under
the penalty of perjury as follows:
1. I am Defendant in this removed proceeding that
was self-styled Diane Smith Carusos, as Heir-at-Law
to the Estate ofDorothy Lang Smith, Deceased, Plaintiff
vs. Noel L. Smith, M.D., Defendant, Case No. 17-Cv342-MM, in the Superior Court of Lumpkin County,
State of Georgia.
2. As shown on court records, in September 2017
Plaintiff Diane Smith Carusos herein sued Defendant
Noel Smith, M.D., herein in the Superior Court of
Lumpkin County, State of Georgia, for alleged noncompliance with the terms of an alleged stipulation
and agreement of the parties that had been supposedly
signed in the Probate Court of Lumpkin County. [Note:
This issue has been now confirmed by Nora Bushfield’s
Affirmation in support of Motion to Remand—On file
with the Court].
3. Thereafter, Defendant had timely and duly
complied with all the requirements set forth by 28
U.S.C. § 1441 and 1446 to remove the foregoing State
Court action to this U.S. District Court. [See, Defend­
ant’s Notice of Removal and supporting documents
on file with the Court.]
4. In or about October 13, 2017, this Court issued
an Order stating that: “Under 28 U.S.C. Section
1446(a), removal from state to federal court is only
proper ‘in the district court of the United States for
the district and division within which [the state]
action is pending[See, Court Order, Exhibit 1 to
Motion—Emphasis added] And, as a result, the Court
ordered that this proceeding be remanded to the

App.25a

Superior Court of Lumpkin County. [See, Court Order,
Exhibit 1 to Motion]
5. Defendant timely moved the Court for recon­
sideration upon my contention that this Court’s said
Order was erroneous as a matter of law, justice, due
process, and judicial economy.
6. Within 24 hours of filing with the Court of
Defendant’s Motion for Reconsideration, and well before
its return date of November 17, 2017, this Court
GRANTED defense Motion for Reconsideration on
October 24, 2017, and directed that “Under 28 U.S.C.
§ 1447(c), Plaintiff has until November 6, 2017 to file
a motion to remand on the grounds that removal is
procedurally improper.” [EXHIBIT 2]
7. Undisputedly, by granting Defense motion for
reconsideration this Court agreed that it has subjectmatter jurisdiction over this matter pursuant to 28
U.S.C. § 1332, to wit: Plaintiff being a citizen of
Georgia while Defendant a citizen of New York.
8. The Court however shows sign of being confused
regarding the difference between two following distinct
legal concepts: (a) subject-matter jurisdiction and (b)
venue. And, as such the Court issued its incorrect
legal advice in aid of Plaintiff that she should file “a
motion to remand on the grounds that removal is
improper procedurally.” But she should do so on or
before November 6, 2017, i.e. as a matter of law,
plaintiff must file a motion to remand within 30 days
following the removal that occurred on October 6,
2017. [EXHIBIT 2]
9. Notwithstanding the above, only on November
8, 2017 I received in the mail a copy of this Court
Order dated November 6, 2017 directing that the Court

App.26a

“(h)aving received Plaintiffs motion to remand pursuant
to 28 U.S.C. Sec. 1447(c), ECF No. 11, ordered that
(l) By November 22, 2017 Defendant shall file his
opposition paper, and (2) By December 1, 2017 Plaintiff
shall file her Reply. [EXHIBIT 3]
10. This is therefore Defendant’s Opposition
paper to Plaintiffs purported “Motion to Remand,”
and Defendant’s “Cross-Motion” for ancillary and/or
additional relief duly set forth in the instant Notice
of Cross-Motion.
11. First, it is of note that to date Plaintiff has
failed to file any motion to remand as (improperly)
suggested by the Court. (The suggestion is indeed
improper because the Court may not as a matter of
law and justice take side and provide legal advice to
litigant or their counsel on how to practice law or
analyze legal issue on their behalf, especially in this
case Plaintiff is represented by her Georgia attorney
at law, why Defendant is pro se.)'
12. Second, only on or about November 5, 2017
Defendant received by email a copy of Nora Bushfield’s
letter dated November 3, 2017 to your Honor. [EX­
HIBIT 4]
13. A review of the letter shows that (a) It is not
a motion made by Plaintiff Diane Carusos and/or her
attorney at law duly admitted to practice in this
Court to remand the instant proceeding, and (b) It
was only a private letter by a person not admitted to
practice in this Court to personally advise a Judge
having jurisdiction over this Case that due to her
“insurmountable” difficulties to put herself in a
position to represent Plaintiff Diane Carusos in this
Court, this Court should have understood her personal

£

App.27a

problems and extend time for her to move the court
to remand the action when she would have been able
to do so on behalf of Plaintiff.
14. With due respect, patently such letter is not
a motion to remand this Case to the Court from
which it was removed.
15. Third, as herein-above mentioned only on
November 8, 2017 Defendant was served with this
Court’s Order dated November 6, 2017 directing
that the Court “(h)aving received Plaintiffs motion to
remand pursuant to 28 U.S.C. Sec. 1447(c), ECF No.
11, ordered that (l) By November 22, 2017 Defendant
shall file his opposition paper, and (2) By December
1, 2017. Plaintiff shall file her Reply. [EXHIBIT 3]
Plaintiff’s Alleged Motion to Remand Is
Defective as a Matter of Law and Should
Be Dismissed as a Matter of Law
16. A review of what the Court seems to refer to
in its November 6, 2017 Order as “Plaintiffs Motion
to Remand” [EXHIBIT 5] shows that it is defective on
its face as a matter of law and must be dismissed for
the following reasons.
17. First, even though it is labelled a “motion”
there was no return date by which Defendant must
answer or oppose.
18. Second, the affirmation in support of motion
was not signed by plaintiff Diane Carusos or a person
with power to sign it on her behalf.
19. Third, it was signed by Nora Bushfield, Plain­
tiffs Georgia attorney at law, who has admittedly dis­
closed to this Court that she is not admitted to practice

App.28a

in this Court, not in any way in a foreseeable future.
[EXHIBIT 5]
20. Fourth, it was not served on Defendant on or
before November 6, 2017, and until today Defendant
has not received a true copy of the Motion.
21. On the face of the Certificate of Service duly
signed by Nora Bushfield, who is not an attorney being
admitted to practice in this Court, it is stated that:
“/ hereby certify that on November 6, 2017, I
electronically filed a MOTION TO REMAND ON
GROUNDS THAT REMOVAL IS PROCEDUALLY
[sic] IMPROPER with the Clerk of Court using the
CM/ECF system, which will automatically send email notification of such filing to the Defendant.”
[Page 7 of EXHIBIT 6]
22. The foregoing certification is incorrect as a
matter of fact and law. Indeed, as a matter of law,
Nora Bushfield, being not admitted to practice in this
Court, had no permission to gain access to the Court’s
CM/ECF system to file or serve papers on parties in a
case where she is neither a party nor licensed attorney
for a party. By doing that either Nora Bushfield has
intentionally or inadvertently violated the law in this
matter of electronic filing. And, as such the service, if
any, being performed by a person without proper
authorization to do so is not valid, even had it been
done as intended.
23. In the instant circumstances, actually the
service of purported Motion to remand has never been
performed by the Court’s CM/ECF system on Defend­
ant herein because I am a party pro se and barred by
rules of the court not to gain access to its electronic
filing system and more importantly no lawyer may use

App.29a

the Court’s CM/ECF system to serve me with any
paper in this case. Indeed, this Court’s November 6
2017 Order has been served on me by mail and I
received it on November 8, 2017.
24. In any event, Defendant herein was not
automatically served with an electronic copy of Plain­
tiff s motion to remand.
25. Also, to date Defendant herein has not
received any hard copy of the alleged Motion to
Remand, something that is consistent with Nora
Bushfield’s Certification of Service, which did not
list Defendant among the parties being served with
such hard copies, if any. [EXHIBIT 5, Page 7 & 8]
26. Viewing the foregoing, it is undisputedly
established that there is no plaintiffs motion to
remand as a matter of law.
Plaintiff’s Alleged Motion to Remand Is
Meritless as a Matter of Law and Should Be
Dismissed as a Matter of Law
27. In order to support motion to remand Nora
Bushfield, who has no right to argue in this Court,
contends that remand should be granted because
Defendant’s removal under 28 U.S.C. Section 1446(a),
is procedurally defective.
28. However, in her Certification, Ms. Bushfield
has completely failed to intelligently discuss the
issue. She merely asserts in substance that there is
no federal law allowing Defendant to remove a plain­
tiffs action to a federal court than the one in whose
jurisdiction the state court from which the case to be
removed is located. [EXHIBIT 5, P.5]

App.30a

29. Indeed, the foregoing “argument” is meritless
and must be rejected as a matter of law. Indeed, Ms.
Bushfield has failed to dissect the difference between
“Subject-Matter” of the Court with “Venue.” Indeed,
while defendant may not move the state action to a
federal court without Jurisdiction, defendant may
always move it to a federal court of competent juris­
diction first, then the issue of venue shall be decided
by the parties and by the Court.
30. The rule of law regarding remand as cited
by Ms. Bushfield in her Certification is completely
misplaced because it governs issue of venue of federal
court that acquires subject-matter jurisdiction over
the case being based on other grounds of subject-matter
jurisdiction than Diversity Jurisdiction under 28
U.S.C. Sec. 1332.
31. In this case, the subject-matter jurisdiction
of this Court over this case through Diversity Juris­
diction under 28 USC Sec. 1332 has been undisputed.
32. The issue of whether the parties herein should
litigate in New York or Georgia became only one of
venue, Le. the location of the U.S. District Court of
competent jurisdiction.
33. It is settled law that venue does not deprive
a court of its subject-matter jurisdiction. The issue of
proper venue depends on the sound discretion of the
two or more concerned U.S. District Courts.
34. In this case, while plaintiff has absolutely
failed to show any valid ground to sue Defendant in
Georgia, defendant’s constitutional right to due
process clearly dictates that since Plaintiff must sue
Defendant in a U.S. District Court due to diversity of
citizenship and that Defendant is undisputedly a citizen

App.31a

of New York, while Plaintiff a citizen of Georgia, she
must be doing so in this SDNY.
35. It is of note that in order to sue Defendant
in Georgia State Court, instead of New York where
Defendant resides, Plaintiff has made material mis­
representation of fact that Defendant had consented to
accept jurisdiction of the Superior Court of Lumpkin
County. It was a glaring he for which Bushfield should
be as sanctioned.
36. Therefore, it would be undisputedly grave
error of law for this Court to agree with Plaintiff and
remand this case to Georgia, where neither state court
nor federal court would have subject matter jurisdiction
over this action.
CONCLUSION
37. Viewing that the subject-matter jurisdiction
of this Court over this case has been undisputedly
established under 28 U.S.C. § 1332 and that the only
rational venue of this proceeding is the district where
defendant resides and was served with summons,
Plaintiffs motion to remand, if any, must be denied,
and Defendant should be granted all relief set forth
in my instant Notice of Cross-Motion.
38. Another way to view this matter correctly
may be simply put as follows. First, Plaintiffs motion
to remand, if any, must be denied because it is in fact
a motion for reconsideration of this Court October 24,
2017 Order granting Defendant’s motion to reconsider
this Court’s October 13 2017 Order remanding the case
to Georgia. Second, Plaintiffs motion for reconsideration
must be denied because it only rehashed the same
argument already made before but failed to point out

App.32a

that the Court has overlooked some material facts
and/or controlling legal authority in this matter,
which if the Court had considered would have resulted
in a different conclusions of law.
Grounds Showing That Defendant Noel Smith
Should Be Allowed to Proceed Pro Se
on Submission of Papers Without
Oral Argument or Court Appearance
39. The undersigned Noel Smith, M.D., defendant,
and movant herein is over 75 years of age. I am still
a very busy practicing surgeon in good standing in
Manhattan, New York. I have no financial means to
afford a competent lawyer in this case. I am now relying
on friends, who are retired attorneys at law helping
me with ideas, and on paralegal services to type and
prepare and serve these papers in accordance with
common sense, and my Constitutional right to due
process.
40. I believe that anything that can be said in
open court can be put in writing with documents in
support.
41. As such, I respectfully move this Court to
honor my constitutional right to due process by allowing
me to do all my motions) and opposition papers by
submission, without neither court appearance nor oral
argument.
42. Your affirmant further respectfully requests
that this Court issue an order to the Clerk of the
Court to serve me promptly with all and any orders
or papers or warnings or notices upon your affiant
herein at my current address that is on file with the
Court.

i

5

App.33a

WHEREFORE, Defendant Noel L. Smith, M.D. 5
order granting all relief duly respectfully applies to
this Court for an set forth in my instant Notice of
Cross-Motion, and/or granting other and further relief
as the Court may deem just and proper in the premises.

Is/ Noel L. Smith
Noel L. Smith, Defendant
325 Broadway, Suite 204
New York, NY 10007
Dated: November 13, 2017

